U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




            UNITED STATES PATENT
           AND TRADEMARK OFFICE
Additional Senior Management Attention
         Needed to Strengthen USPTO’s
           Information Security Program
      Final Inspection Report No. OSE-14816/March 2002




                          PUBLIC

                         RELEASE





                            Office of Systems Evaluation

U.S. Department of Commerce                                                                    Final Inspection Report OSE-14816 

Office of Inspector General                                                                                           March 2002




                                                             CONTENTS 


EXECUTIVE SUMMARY ............................................................................................................ ii


INTRODUCTION .......................................................................................................................... 1 


BACKGROUND ............................................................................................................................ 2 


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 6 


FINDINGS AND RECOMMENDATIONS................................................................................... 8 

I. Information Security Policies and Procedures Are Formal and Documented ........................ 8 

II.	 Key Management Controls Are Not Fully Implemented........................................................ 8 

      A. 	 Risk Assessments Have Not Been Completed................................................................ 8 

      B.	 Security Plans Are Outdated........................................................................................... 9 

      C.      Systems Are Not Accredited....................................................................................... 9 

      D. 	 Information Policies and Security Controls Are Not Periodically Reviewed............... 10 

      E. 	 USPTO Needs to Determine Whether It Has a Potential Material Weakness.............. 10 

III.	 Key Operational Controls Are Not Fully Implemented........................................................ 13 

      A. 	 Information Security Awareness, Training, and Education Are Inadequate ................ 13 

      B.	 Incident Response Reporting And Handling Procedures Need To Be Revised ........... 14 

IV.	 Information Security Requirements Should Be Identified in Capital Asset Plans ............... 15 

      and Linked to Security Cost Estimates ................................................................................. 15 

V. 	 Information Security Could Be Improved by Proactive Attention ....................................... 17 

      from Senior Management ..................................................................................................... 17 

APPENDIX A............................................................................................................................... 19 


APPENDIX B ............................................................................................................................... 21 


ATTACHMENT A ....................................................................................................................... 22 





                                                                      i
U.S. Department of Commerce                                                 Final Inspection Report OSE-14816 

Office of Inspector General                                                                        March 2002


                                       EXECUTIVE SUMMARY 


USPTO’s day-to-day operations grow increasingly dependent on information technology—
patent and trademark applications are filed, fees are paid, and some USPTO employees telework
electronically via the Internet, just to cite a few. These advances promise to improve delivery of
USPTO services, but they also increase the risk to and vulnerability of USPTO’s computer
systems and networks. Greater access escalates the risk of unauthorized access and exposure of
USPTO’s data to unauthorized disclosure or modification.

The objective of our evaluation was to determine whether USPTO’s information security
program for unclassified systems complies with the Government Information Security Reform
Act (GISRA), which mandates that federal agencies have effective security for the information
resources supporting their operations and assets. Using NIST’s Security Self-Assessment Guide
for Information Technology Systems,1 as recommended by OMB, we evaluated USPTO’s
information security policies and procedures, roles and responsibilities, and adherence to
applicable laws, regulations, and guidance.

Under GISRA, information security is the responsibility of agency senior management—the
agency head, senior agency officials, and the Chief Information Officer (CIO). Each agency
head is charged with ensuring the security of information and information systems by promoting
security as an integral component of that agency’s business operations.

We found that although USPTO generally has documented policies and procedures in place that
are consistent with accepted security practices, many other important security requirements are
not satisfied. Our findings suggest that information security has not yet become an integral part
of USPTO’s business operations; therefore, fundamental responsibilities are frequently not
carried out. In its GISRA reporting to OMB for fiscal year 2001, we are concerned that USPTO
substantially overestimated the quality of its security program and presented unrealistic
expectations for improvement for this year and next. Moreover, it should be noted that we have
identified strengthening information security as a top 10 management challenge for the
Department. Although the American Inventors Protection Act of 1999 (P.L. 106-113) recast
USPTO as a performance-oriented organization, giving it substantial autonomy and
independence from the Department, this challenge applies to USPTO as well.

Our evaluation found the following issues:

��	 Eighty-two percent of USPTO’s 78 operational systems do not have documented risk
    assessments, 30 percent of its security plans are outdated, and none of its operational systems
    have a current accreditation as required by OMB Circular A-130. Lack of accreditation
    means that USPTO management has not officially authorized any of these systems for use.
    Moreover, USPTO officials do not conduct periodic reviews of information policies and


1
 National Institute of Standards and Technology, August 2001. Security Self-Assessment Guide for Information
Technology Systems NIST Special Publication 800-26. Gaithersburg, MD: National Institute of Standards and
Technology.



                                                       ii
U.S. Department of Commerce                                          Final Inspection Report OSE-14816 

Office of Inspector General                                                                 March 2002


   security controls and techniques. As a result of these problems, USPTO lacks assurance that
   its operational systems are adequately protected. (See page 8.)

��	 USPTO provides information security-awareness training to new employees, but does not
    have a program to provide adequate training and education to personnel who need
    specialized security skills and competencies. Thus, USPTO cannot ensure that employees
    who have significant security responsibilities understand or apply effective information
    security practices. (See page 13.)

��	 USPTO’s incident response procedures do not include any requirement to report incidents to
    the General Services Administration’s Federal Computer Incident Response Center or to
    OIG. Such reporting is required by GISRA and OMB guidance. In addition, incident
    reporting is a valuable tool that aids the federal government in recognizing and detecting
    intrusions and securing its information systems. (See page 14.)

��	 USPTO’s funding requests for information security do not appear to be based on a thorough
    analysis of its security needs or the cost of satisfying them. Even though OMB stated it will
    not approve funding for projects that do not include the cost of meeting security
    requirements, USPTO did not identify costs for these requirements in its fiscal year 2002 or
    2003 budget submissions. If challenged by OMB, USPTO will not be able to justify the
    funding it requested to plan and implement needed security improvements. (See page 15.)

��	 Although essential to establishing the environment and ensuring the resources needed to
    promote an effective information security program, senior management’s awareness and
    support of this program are minimal and its proactive involvement is absent. Because
    USPTO’s information security needs have not received adequate attention by senior
    management, significant weaknesses exist in its information security planning, budgeting,
    implementation, review, and oversight. (See page 17.)

We made numerous recommendations for improving information security at USPTO (see pages
11, 12, 15, 16, and 18). Most importantly, we recommend that the Under Secretary of
Commerce for Intellectual Property and Director of USPTO ensure that senior management
officials give information security high priority, sufficient resources, and their personal attention
and that they work closely with the CIO to improve information security at USPTO (see page
18).
                                                 �
USPTO agreed with all of our recommendations and has described corrective actions it is taking
or has planned (see Attachment). We have included a synopsis of USPTO’s response and, where
appropriate, our comments on its response.

As regards accreditation, USPTO indicated that whether it can complete system accreditations
according to the timetable we recommend depends on the resources required and their
availability (see page 23). Because of the importance of accreditation in ensuring that
operational systems are adequately protected, when allocating resources, we urge USPTO to give
this matter high priority. USPTO also sought clarification on incident reporting procedures (page


                                                 iii
U.S. Department of Commerce                                       Final Inspection Report OSE-14816 

Office of Inspector General                                                              March 2002


25) and the acceptability of reporting incidents to the Department, which would then relay the
information to FEDCIRC. The OIG accepts this as a suitable approach.

USPTO’s response to the Draft Inspection Report is included as Attachment A.




                                               iv
U.S. Department of Commerce                                              Final Inspection Report OSE-14816 

Office of Inspector General                                                                     March 2002


                                          INTRODUCTION 


On October 30, 2000, the President signed into law the Government Information Security
Reform Act (GISRA), Title X, subtitle G, of the 2001 Defense Authorization Act (P.L. 106-398).
The law amends the Paperwork Reduction Act of 1995 by enacting a new subchapter on
information security, which primarily addresses managing, implementing, overseeing, and
ensuring the security of unclassified and national security information systems.

Under GISRA, information security is the responsibility of agency senior management—the
agency head, senior line managers, and the Chief Information Officer (CIO). Appropriate senior
officials are responsible for assessing security risks associated with operations and assets for the
programs and systems over which they have control. Each agency head is charged with ensuring
the security of information and information systems by promoting security as an integral
component of that agency’s business operations. Each is also charged with ensuring that an
information security plan to safeguard the privacy, confidentiality, and security of federal
information is carried out throughout the life of each system.

The agency CIO is required to administer the information security program agency-wide. This
includes developing the security program, ensuring that the program is effectively implemented
and maintained, training and overseeing personnel with significant responsibilities for
information security, and assisting other senior agency officials with their information security
responsibilities.

GISRA also requires all federal agencies to perform annual reviews of their security programs
and the Office of Inspector General (OIG) for each agency to conduct independent evaluations.
This report presents the results of our independent evaluation of the U.S. Patent and Trademark
Office (USPTO) information security program as required by GISRA.

This draft report presents the results of our evaluation of USPTO’s information security policies
and procedures as they apply to USPTO entitywide. A separate report that OIG recently provided
to USPTO presents a review of the adequacy and effectiveness of the general controls related to
the integrity, confidentiality, and availability of information specifically associated with
USPTO’s financial systems, which is required as part of the audit of USPTO’s financial
statements.2 A review of the security of selected non-financial information systems will be
conducted separately.

Our evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended.




2
 US Department of Commerce, Office of Inspector General, February 2002. Improvements Needed in the General
Controls Associated with USPTO’s Financial Management Systems, Audit Report No. FSD-14477-2-0001.
Washington, DC: US Department of Commerce..


                                                     1

U.S. Department of Commerce                                             Final Inspection Report OSE-14816 

Office of Inspector General                                                                    March 2002




                                          BACKGROUND

At USPTO, information technology increasingly supports day-to-day operations. Greater
reliance on the Internet is evidenced by the increasing numbers of clients electronically filing
patent and trademark applications and paying fees and by the larger number of USPTO
employees who use the Internet to communicate for purposes of teleworking. Although these
advances promise to improve USPTO’s ability to deliver services, they expose the agency’s
computer systems and networks to a greater risk of unauthorized access and increase the
possibility of unauthorized disclosure or modification of USPTO data. Cost-effective security
measures are required to protect USPTO’s information assets.


USPTO’s Allocation of Information Security Responsibilities

Many offices within USPTO have information security responsibilities (The shaded boxes in
Figures 1 and 2 indicate the offices discussed in this report that share responsibility for
information security.) Some key responsibilities are described here; other roles and
responsibilities are presented in Appendix A.


                                             Under Secretary of         United States Patent and Trademark Office
                                          Commerce for Intellectual     High-Level Organizational Structure
                                         Property and Director of the
                                           United States Patent and
                                              Trademark Office



                     Commissioner                                          Commissoner
                         for                                                    for
                       Patents                                              Trademarks




Chief Financial      Administrator for                                     Administrator for      Chief Information
   Officer                                    General Counsel             Quality Management           Officer
                      External Affairs
                                                                             and Training


Figure 1. Responsibilities for Information Security

The Under Secretary of Commerce for Intellectual Property and Director of the United States
Patent and Trademark Office determines the policies, directs the programs, and is responsible for
all activities of USPTO. The Under Secretary is also ultimately responsible for approving all
information technology strategies and initiatives and has the overall responsibility of ensuring
the confidentiality, integrity, and availability of information systems and assets.



                                                    2

U.S. Department of Commerce                                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                                               March 2002




The Commissioner for Patents provides administrative and policy direction to patent examining
groups and related operations and validates functional requirements, including security
requirements. The Commissioner for Trademarks has the same responsibilities with regard to
trademark examination.

The USPTO CIO approves information security policies and procedures and also is the principal
advisor to the Under Secretary on the application of information technology to support and
improve USPTO business processes and information.




     Chief Information
          Officer




      Deputy CIO for      Office of System   Office of System
                                                                       Office of Data        Office of Acquisition
         System           Architecture and   Development and
                                                                        Managment                Management
       Modernization        Engineering        Maintenance




      Deputy CIO for                          Office of                                   Office of
                             Office of                          Office of System
        Information                          Information                                 Information
                             Customer                            and Network
    Technology Services                        Systems                                  Dissemination
                          Support Services                        Management
                                               Security                                    Services



    Office of System
       Assurance




      Office of
    Public Records




Figure 2. Office of the Chief Information Officer

The Deputy CIO for System Modernization provides the CIO with system support for system
architecture and engineering and for system development and maintenance. This official is
responsible for ensuring that security is designed into each information system. This is
accomplished by assigning a system development manager from this organization to each system
being developed or acquired.

The Deputy CIO for Information Technology Services provides support to the CIO in the areas
of technical support services, system and network management, and information dissemination.
This position also provides administrative and policy oversight for the Office of Information
Systems Security (OISS).




                                                      3

U.S. Department of Commerce                                                     Final Inspection Report OSE-14816 

Office of Inspector General                                                                            March 2002


The Information Systems Security Officer manages the OISS and provides for the
implementation, operation, and maintenance of an enterprise-wide information technology
infrastructure security program. This position is also responsible for

      ��	 providing computer security consulting services to USPTO organizations;

      ��	 providing support for computer security training for end users and developers;

      ��	 conducting informal or formal compliance audits regarding requirements of OMB

          Circular A-130, the Computer Security Act, and other policies and laws; and 


      ��	 leading technical development projects regarding the building and maintenance of the
          USPTO computer security infrastructure.

The Information Systems Security Officer is also responsible for public key infrastructure
implementation, operations, and maintenance.3

USPTO’s Fiscal Year 2001 GISRA Reporting

As noted previously, GISRA requires annual agency security program reviews in addition to
annual OIG independent evaluations. As a result of the greater independence and flexibility
allowed USPTO by the American Inventors Protection Act of 1999 (P.L. 106-113), USPTO
submitted its fiscal year 2001 information security review separate from the Department’s. In
conducting its fiscal year 2001 review, USPTO used NIST’s Security Self-Assessment Guide for
Information Technology Systems,4 (see Table 1 for control areas), which was recommended by
OMB. The NIST guide builds on the Federal Information Technology Security Assessment
Framework (Framework),5 which provides agency officials with a method for determining the
current status of their security programs relative to existing policy and, where necessary,
establishing a target for improvement. The Framework establishes five levels of information
security program effectiveness (Figure 3). Each level identifies the implementation steps that
must be taken to achieve that particular assessment level.

Based on its self-assessment, USPTO reported that tested and reviewed information security
procedures and controls were in place for all of its systems. That is, USPTO rated itself at level 4
under the Framework, stating, “With current funding levels, USPTO will meet 75 percent of
level 5 compliance of GISRA at the end of FY 2002. However, we expect to achieve 100 percent
compliance by the end of FY 2003.”


3
 A public key infrastructure enables users of a basically unsecure public network such as the Internet to securely
and privately exchange data and money through the use of a public and a private cryptographic key pair that is
obtained and shared through a trusted authority.
4
 National Institute of Standards and Technology. August 2001. Security Self-Assessment Guide for Information
Technology Systems, NIST Special Publication 800-26. Gaithersburg, MD: National Institute of Standards and
Technology. (August 2001).
5
    The framework is Appendix C of the NIST Security Self-Assessment Guide.


                                                          4

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002


Table 1. NIST Security Control Areas

  Management Controls              Operational Controls              Technical Controls
�� Risk Management             �� Personnel Security              �� Identification and
�� Review of Security          �� Physical Security                  Authentication
   Controls                    �� Production Input/Output         �� Logical Access Controls
�� Life Cycle                     Controls                        �� Audit Trails
�� Certification and           �� Contingency Planning
   Accreditation               �� Hardware and System Software
�� System Security Plan           Maintenance
                               �� Data Integrity
                               �� Documentation
                               �� Security Awareness, Training,
                                  and Education
                               �� Incident Response Capability




               Level 1        Documented Policy
               Level 2        Documented Procedures
               Level 3        Implemented Procedures and Controls
               Level 4        Tested and Reviewed Procedures and Controls
               Level 5        Fully Integrated Procedures and Controls

Figure 3. Federal IT Security Assessment Framework

In reviewing the information supporting the self-assessment, we found that USPTO merited an
overall score of no more than level 2, and our independent evaluation results, presented in this
report, confirm this lower rating. Thus, our evaluation shows that in its reporting to OMB,
USPTO substantially overestimated the quality of its fiscal year 2001 security program and
presented an expectation for 2002 and 2003 that is far from realistic.




                                                 5

U.S. Department of Commerce                                                   Final Inspection Report OSE-14816 

Office of Inspector General                                                                          March 2002


                          OBJECTIVES, SCOPE, AND METHODOLOGY 


The objective of this evaluation was to determine whether USPTO’s information security
program for unclassified systems complies with GISRA, which seeks to achieve effective
security for information resources supporting federal operations and assets. We satisfied this
objective by evaluating USPTO’s information security policies and procedures, roles and
responsibilities, and adherence to applicable laws, regulations, and guidance. A review of
selected information systems will be conducted separately.

We reviewed USPTO’s information security policies and procedures using criteria in NIST’s
Security Self-Assessment Guide and the Federal IT Security Assessment Framework cited
above. The Framework establishes five levels (Figure 3) of security effectiveness and covers the
three major control areas identified by NIST (Table 1). We also used as criteria OMB Circular
A-130, Appendix III, Security of Federal Automated Information Resources; the Computer
Security Act of 1987; and GISRA.

In addition, we reviewed USPTO’s self-assessments of information systems and security controls
that comprised its fiscal year 2001 GISRA submission, as well as its Strategic Information
Technology Plan for fiscal years 2001-2006. We interviewed USPTO officials including the
CIO, the Deputy CIO for Information Technology Services, the Acting Director for the
Technical Plans and Policy Staff, the Acting Information Systems Security Officer, and the
Director of the Office of Systems and Network Management.

We held an entrance conference with USPTO on February 11, 2001. Our fieldwork was
conducted from October through December 2001. On February 1, 2002, we met with the CIO
and members of his staff to discuss the results of our evaluation. These officials generally agreed
with our findings and discussed steps that they are taking or have planned to improve
information security at USPTO. These steps include:

    ��	 Certification and accreditation.6 The CIO is obtaining contractor support to refine and
        finalize the certification and accreditation process, train USPTO personnel to use the
        process, and apply it to USPTO systems and networks.

    ��	 Office of Information Systems Security. The CIO is planning a reorganization of this
        office designed to improve security by separating responsibilities for security policy
        compliance from security operations.

    ��	 Security Technology Working Group. The CIO has established a security working
        group whose objectives are to develop information security technical and policy expertise
        and apply it to systems and infrastructure projects, to select security standards and
        products, and to implement security from an enterprise perspective.



6
 Certification is the formal testing of the security safeguards implemented in a computer system to determine
whether they meet applicable requirements and specifications. Accreditation is the formal authorization by
management for system operation, including an explicit acceptance of risk.


                                                         6

U.S. Department of Commerce                                      Final Inspection Report OSE-14816 

Office of Inspector General                                                             March 2002


   ��	 Identification of specific internal security weaknesses. The CIO is obtaining contractor
       support to perform firewall zone vulnerability scans, assess computer virus protection,
       and recommend improvements.

These steps address a number of the issues we identified in our evaluation and, when
implemented, should help to improve the security of USPTO information assets.




                                               7

U.S. Department of Commerce                                         Final Inspection Report OSE-14816 

Office of Inspector General                                                                March 2002



                          FINDINGS AND RECOMMENDATIONS


I.       Information Security Policies and Procedures Are Formal and Documented

Key to managing information security is establishing and implementing formal, documented
security policies—the primary mechanism by which management communicates its views and
requirements and establishes cost-effective organizational and system security controls. A sound
policy delineates the security management structure, clearly assigns security responsibility, and
lays the foundation necessary to reliably measure progress and compliance.

USPTO’s Technical Standards and Guidelines (TSG) Program includes formal and documented
security policies and procedures. Two TSGs form the foundation of USPTO’s information
systems security program: (1) Automated Information System Security Planning, Technical
Standard and Guideline USPTO IT-212.2-08 (August 2000) and (2) Automated Information
System Security Controls Manual, Technical Standard and Guideline USPTO IT-212.2-15,
(September 2000). These documents cover the three NIST-identified major areas of control:
management, operational, and technical (Table 1). The policies and procedures the TSGs
prescribe are consistent with accepted practices and generally adhere to applicable laws,
regulations, and guidance governing information systems security.

We did, however, find one omission: there is no provision in the policy for identifying
information security deficiencies that may potentially be a material weakness, in accordance with
OMB Circular A-123, Management Accountability and Control, and the Federal Manager’s
Financial Integrity Act (FMFIA) and for bringing such deficiencies to the attention of the
Department, as required by Department guidance. Failure to identify significant information
security deficiencies results in sustained vulnerability and prolonged risk. (This topic is
discussed further in Finding II.)

II.    Key Management Controls Are Not Fully Implemented

Despite the fact that USPTO has formal documented policies, key management controls are not
fully implemented: required risk assessments have not been completed, security plans are
outdated, and management has not accredited operational systems, accreditation being the formal
authorization by management for operational use.

A.     Risk Assessments Have Not Been Completed

GISRA requires program officials to determine and assess the risks to the operations and assets
over which they have control. OMB Circular A-130 no longer requires agencies to prepare
formal risk analyses but does require them to use a risk-based approach to determine adequate
security. This means security must be commensurate with the risk and magnitude of potential
harm resulting from the loss, misuse, or unauthorized access to or modification of information.
Risk assessments should incorporate the major factors in risk management: value of the system
or application, possible costs of enacted threats or exploited vulnerabilities, and the effectiveness
of current or proposed safeguards. Assessing risk to a system is an ongoing necessity, ensuring



                                                  8

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002


that new threats and vulnerabilities are identified so appropriate security measures can be
implemented.

According to USPTO's Automated Information System (AIS) Security Planning TSG, the
Information System Security Officer in coordination with the System Development Manager, is
responsible for performing or contracting for risk assessments for USPTO’s information systems.
The TSG also provides guidance and a sample template for preparing risk assessments.

We found that there are no documented risk assessments for 64 of USPTO’s 78 operational
systems, fully 82 percent. Without risk assessments, USPTO cannot comprehensively analyze
risks to its operational systems and therefore lacks a basis for determining what the appropriate
security controls should be.

B.     Security Plans Are Outdated

A system security plan provides an overview of the security requirements of the system and
describes the controls in place or planned for meeting those requirements. It also delineates
responsibilities and expected behavior of all individuals who access the system. The security
plan should be reviewed annually and revised as needed to ensure that security controls can
handle significant changes to the system as well as rapidly changing threats.

At USPTO, the project manager, who represents the business area that will use the system, is
responsible for preparing and maintaining the information system security plan throughout the
system’s life cycle, with assistance from the Information System Security Officer. USPTO's AIS
Security Planning TSG contains procedures and a template for preparing these plans.

We found that 30 percent of USPTO’s security plans (representing 24 systems) were more than 3
years old. One of the systems is PTOnet, one of USPTO’s major systems. It supports office
automation services and provides access to business applications and databases for more than
8,000 employees. It has undergone significant changes over the years, yet its security plan has
not been updated since 1992. Without up-to-date security plans, USPTO has no assurance that
current security controls provide adequate protection.

C.     Systems Are Not Accredited

OMB Circular A-130 requires management officials to formally authorize the use of a system
before it becomes operational. This authorization, also referred to as accreditation, denotes that
the manager understands and accepts the responsibility for the risks associated with putting the
system into operation. The authorization is based on an assessment of the management,
operational, and technical controls. Because the security plan establishes and documents the
system protection requirements and the security controls in place, it forms the basis for
management's decision to authorize processing. A system should be re-authorized following any
significant change or at least every 3 years. It should be done more often where risk and potential
magnitude of harm are high.




                                                 9

U.S. Department of Commerce                                         Final Inspection Report OSE-14816 

Office of Inspector General                                                                March 2002


At USPTO, accreditation is a group responsibility. The Project Manager, System Development
Manager, and Information System Security Officer are responsible for preparing and submitting
an accreditation package that includes a statement certifying that security controls, features, and
procedures are activated and working as required. The CIO and the program sponsor have
approval authority for accreditation and determine whether system controls are adequate and
level of risk is acceptable based on an evaluation of this package. The AIS Security Planning
TSG provides guidance on preparing the certification and accreditation package.

We found that none of USPTO's operational systems had a current authorization to process
(accreditation). Although its Strategic Information Technology Plan, published in March 2001,
established a milestone of accrediting all business-critical information systems by July 2005,
USPTO has made little progress in reaching this milestone. The lack of accreditation indicates
that management has neither formally reviewed the controls nor explicitly accepted the
associated risk. As a result, USPTO lacks assurance that its operational systems are adequately
protected. We therefore believe that USPTO needs to focus on and accelerate this milestone. It
should prioritize its systems according to risk and importance, accredit the high-risk systems by
the end of fiscal year 2002, and accredit all remaining systems by the end of fiscal year 2003.

D.     Information Policies and Security Controls Are Not Periodically Reviewed

A system’s security degrades over time as technology evolves and as personnel, procedures, and
system locations change. Reviews should assure that policies and security controls are
functioning effectively. OMB Circular A-130 requires that agencies perform a formal
management review of controls at least every 3 years. Management authorization to process is
based on a review of these controls.

The Office of Information System Security is responsible for reviewing and verifying, through
test and evaluation, that the security controls, features, and procedures are in place and working
as required before a system is accredited. The results of that review and verification are used as
supporting documentation to continue accreditation. However, USPTO noted in its self-
assessments that these reviews were not performed, citing funding constraints as the reason.
Without these reviews, USPTO cannot ensure that security controls are appropriate and
accomplish the intended purpose.

E.     USPTO Needs to Determine Whether It Has a Potential Material Weakness

OMB Circular A-130 instructs agencies to identify security deficiencies pursuant to OMB
Circular A-123 if during the reviews it is determined that there is no assignment of security
responsibility, no security plan, or no accreditation. The agency’s decision whether to report a
material weakness should depend on the risk and magnitude of harm that could result from the
weakness. As noted in the previous section, failure to report significant information security
weaknesses could result in unaddressed, unacceptably high security risks.

As previously discussed, and illustrated in Figure 4, USPTO lacks up-to-date security plans and
current accreditations for its operational systems. It needs to determine whether these
deficiencies are potential material weaknesses to be brought to the attention of the Department,



                                                10

U.S. Department of Commerce                                            Final Inspection Report OSE-14816 

Office of Inspector General                                                                   March 2002


which would then make a determination of whether they are significant enough to be reported to
the President and the Congress. Additionally, USPTO should revise its information security
policy to identify information security deficiencies that are potential material weaknesses
pursuant to OMB Circular A-123 and FMFIA, and bring them to the attention of the Department.



               100%                                                    % Incomplete
                80%                                                    % Complete

                60%
                40%
                20%
                 0%
                      Risk Assessments Security Plans      Systems
                                                          Accredited




Figure 4. Status of USPTO’s Key Information Security Management Controls

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office ensure that PTO managers take the following
actions:

1. 	 Conduct, document, and keep current, risk assessments for all operational systems.

   USPTO has agreed with this recommendation and has contracted with a vendor to develop
   procedures for certification and accreditation as well as perform these procedures on a
   pilot group of USPTO’s most critical systems.

2. 	 Develop up-to-date security plans for all operational systems.

   USPTO has agreed with this recommendation and has established a schedule for
   developing or updating security plans for all its operational systems. USPTO has noted
   that significant progress has been made and that approximately 80% of their operational
   systems now have current security plans.

3. 	 (a) Prioritize all operational systems according to risk and importance, (b) accredit all high-
     risk systems by the end of fiscal year 2002, and (c) accredit all remaining systems by the end
     of fiscal year 2003.

   USPTO has agreed with this recommendation; however, its response indicates that
   completing system accreditations according to the timetable we recommend will depend on
   resource requirements and availability. Because of the importance of accreditation in



                                                    11

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002


   ensuring that operational systems are adequately protected, we urge USPTO to give this
   matter high priority when allocating resources.

4. 	 Update accreditations at least every 3 years or whenever a significant change in the system
     occurs for all operational systems.

   USPTO has agreed with this recommendation and will be updating the IT Security 

   Program Plan to include certifying and accrediting one-third of its AISs and 

   infrastructure systems each year after FY 2003. 


5. 	 Implement a program stipulating periodic reviews and evaluations of the effectiveness of
     information security controls.

   USPTO has agreed with this recommendation. As part of the certification and
   accreditation process, USPTO will review and evaluate the security controls related to each
   system. USPTO will also annually out-source assessments of the infrastructure and other
   operational systems.

6. 	 Revise USPTO’s information security policy to include identifying information security
     deficiencies that may potentially be a material weakness pursuant to OMB Circular A-123
     and FMFIA and bringing such deficiencies to the attention of the Department.

   USPTO has agreed with this recommendation and will develop an administrative order
   that defines the process for identifying and reporting material weaknesses to the
   Department.




                                                12

U.S. Department of Commerce                                          Final Inspection Report OSE-14816 

Office of Inspector General                                                                 March 2002


III.   Key Operational Controls Are Not Fully Implemented

USPTO’s information security awareness, training, and education program and incident response
capability are incomplete. As regards training specifically, USPTO needs to provide security
awareness refresher training and training in relevant and needed security skills and competency
for functional specialists and information security staff. Regarding incident response, USPTO’s
procedures must incorporate a reporting function that inculcates the sharing of information with
relevant federal agencies.

A.     Information Security Awareness, Training, and Education Are Inadequate

Information Security Awareness Requires Periodic Refreshing

USPTO’s information security awareness program consists of new employee awareness training
and published security awareness material. All new employees, as part of their orientation,
receive a briefing by the Office of Information Systems Security on the proper and ethical use of
USPTO’s electronic information resources. In addition, USPTO has published two end user
guides, Rules of the Road Services Guide and Computer Housekeeping Guide, which cover such
topics as virus protection, data security, rules of behavior, and handling sensitive data.

Thus USPTO’s information security awareness program covers the areas identified by OMB
Circular A-130 and other applicable guidance governing security awareness; however, awareness
training is a one-time occurrence and only for new employees. Follow-on security awareness
information is provided via the static log-on screen-warning banner with references to the Rules
of the Road Services Guide. OMB Circular A-130 notes that attention to security tends to
dissipate over time. NIST states that a stimulus used repeatedly will eventually be selectively
ignored. Therefore, USPTO should provide periodic refresher training to all employees to assure
that they continue to understand and abide by the applicable rules.

Information Security Training and Education Program Needs to Be Developed

Under the Computer Security Act, each agency is required to provide mandatory periodic
training in computer security awareness and accepted computer practices for all employees
involved with the management, use, or operation of each federal computer system within or
under the supervision of that agency. OMB Circular A-130 emphasizes these mandatory training
requirements and further requires that prior to being granted access to applications and
information systems, all individuals must receive specialized training focusing on their
information security responsibilities and established system rules. In addition, GISRA requires
that the agency CIO ensure the training of personnel who have significant responsibilities for
information security.

USPTO’s computer security training program consists of only information security awareness,
which does not satisfy the supplementary training and education requirements. According to
NIST, a formal information security training and education program focuses on providing the
knowledge, skills, and abilities specific to an individual’s roles and responsibilities relative to
information systems.



                                                 13

U.S. Department of Commerce                                       Final Inspection Report OSE-14816 

Office of Inspector General                                                              March 2002




Although information security officers and other employees with security responsibilities receive
some relevant training, that training is not sufficient, and USPTO lacks a formal training
program to ensure that employees receive security training applicable to their job function.
Without such a program, USPTO cannot ensure that its security professionals and other
employees with security responsibilities understand and apply information security practices
effectively. USPTO needs to establish a formal information security training program aimed at
ensuring that all personnel with significant security responsibilities understand information
security risks and their responsibilities. NIST Special Publication 800-16 provides guidance on
information security training requirements. These training requirements were derived from the
information security program requirements established in OMB Circular A-130.

B.     Incident Response Reporting And Handling Procedures Need To Be Revised

OMB Circular A-130 requires agencies to establish formal incident response mechanisms
dedicated to evaluating and responding to security incidents in a manner that protects their own
information and that of others who might be affected by the incident. The requirement stipulates
that policies and procedures be documented and unnecessary internal obstacles to the timely
reporting of incidents to the appropriate authorities be removed. The intent of the incident
handling provision is to ensure that each agency has both the technical and procedural means in
place to detect and appropriately report security incidents and share information on common
vulnerabilities.

GISRA expands on the existing incident reporting policy by requiring agencies to notify and
consult with law enforcement officials, other offices and authorities, and the General Services
Administration’s Federal Computer Incident Response Center (FedCIRC). OMB’s
implementation guidance for GISRA states that policies and procedures should facilitate the
timely reporting to appropriate authorities within the agency, citing security officials and
Inspectors General as examples. Reporting of incidents not only is required, but increased
sharing of information concerning attempted intrusions, threats, and common vulnerabilities
among organizations has been identified by GAO and FedCIRC as a valuable tool the federal
government as a whole can use to identify and assist in detecting intrusions and securing federal
information systems. An important aspect of information sharing is reporting to FedCIRC any
event violating an explicit or implied security policy. FedCIRC requires that agencies establish
points of contact to facilitate the reporting of incidents and the receipt of warnings and alerts
from FedCIRC.

We found that USPTO’s documentation of information security incident response procedures is
consistent with OMB Circular A-130. The documents appropriately identify roles and
responsibilities, define incident types and severity levels, and have reporting requirements.
However, USPTO does not require the Information Systems Security Officer to notify or consult
with OIG and external security offices and authorities in accordance with OMB guidance. For
the period from October 2000 to October 2001, USPTO internally recorded several high-severity
information security incidents, but did not report any to FedCIRC or OIG.




                                               14

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002


USPTO is aware that its current incident handling and reporting procedures do not meet GISRA
requirements and has drafted a new set of procedures to meet these requirements. USPTO needs
to ensure that these procedures address the reporting of incidents to FedCIRC and to DOC OIG.

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office ensure that USPTO managers take the following
actions:

1. 	 Provide information security awareness refresher training periodically to all employees.

    USPTO has agreed with this recommendation. A joint program office working group was
    established and has developed IT security user training awareness material that will be
    provided to all USPTO employees in the next 2 months.

2. 	 Develop and implement, using NIST Special Publication 800-16 as a guide, a comprehensive
     information security training and education program based on job functions, roles, and
     responsibilities.

    USPTO has agreed with this recommendation and has plans to develop a comprehensive
    IT security training program using the NIST guidelines.

3. 	 Track, on an annual basis, the number of employees trained and the type and cost of training
     provided.

    USPTO has agreed with this recommendation and is working to create a database to track
    personnel who have completed IT security training.

4. 	 Revise incident reporting procedures to incorporate notifying DOC OIG and FedCIRC

    USPTO has agreed with this recommendation and is updating its incident reporting
    procedures. USPTO has indicated that the Department has requested that incidents be
    reported to them and that they will relay the information to FedCIRC. The OIG accepts
    this as a suitable approach.

IV. 	   Information Security Requirements Should Be Identified in Capital Asset Plans
        and Linked to Security Cost Estimates

Under GISRA, agencies must identify and budget for security measures and resources needed to
protect IT investments, starting from the earliest planning stages and throughout the investment
life cycle. According to OMB Circular A-11, which governs preparing and submitting budget
estimates, security costs are to be presented as a percentage of the total system cost or project
investment in Exhibit 53, “Agency IT Investment Portfolio”; and capital asset plans must be
provided (Exhibit 300), indicating whether the project’s security meets GISRA requirements and
describing the security and privacy measures to be used.



                                                15

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002




Despite GISRA requirements and the statement from OMB that it will not approve funding for
projects that do not include costs for meeting system-specific security needs, USPTO did not
identify security costs for any individual system in its fiscal year 2002 or 2003 budget
submissions. Even if a security funding request had been included, the amount would have been
questionable because USPTO has not conducted an accurate, thorough analysis of current
security needs or the cost of satisfying them. Furthermore, fiscal year 2002-2007 budget
formulation guidance provided by USPTO’s Office of the Chief Information Officer does not
contain instructions for incorporating security costs into budget formulations.

A lack of support within USPTO for information security funding has been cited as the reason
for deficiencies in such areas as system accreditations and training. We believe that poorly
substantiated budget requests have contributed to this problem. Without sound analysis, USPTO
will not be able to justify funding that will be needed to plan and implement required security
improvements. Indeed, most of the improvements we observed occurred not as a result of
proactive analysis and planning, but as a direct response to an OIG audit or evaluation or to
specific incidents.

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office ensure that USPTO managers take the following
actions:

1. 	 Revise USPTO’s budget guidance to include analyzing and presenting information security
     costs and ensure that such costs are well substantiated.

   USPTO has agreed with this recommendation and is formulating additional budget
   guidance.

2. 	 Explicitly identify information security requirements and costs on a system-specific basis in
     funding requests to OMB.

   USPTO has agreed with this recommendation and is refining its budget estimates at the
   system level for future submissions.




                                                16

U.S. Department of Commerce                                         Final Inspection Report OSE-14816 

Office of Inspector General                                                                March 2002


V.	    Information Security Could Be Improved by Proactive Attention
       from Senior Management

GISRA requires that the head of each agency ensure that the agency’s information systems’
security plans are carried out throughout the life cycle of each system to safeguard the privacy,
confidentiality, and security of federal information. The agency head is also responsible for
promoting security as an integral component of that agency’s business operations; agency
managers and program officials are to ensure that effective security policies and procedures are
implemented throughout the life cycle of every IT system. As the foregoing discussion
documents, information security has yet to become an integral component of USPTO’s business
operations. Thus, there is a lack of follow through in carrying out fundamental responsibilities,
including

��	 identifying, assessing, and understanding risks to USPTO’s IT assets;

��	 determining security needs commensurate with the levels of risk;

��	 planning, implementing, and testing controls that adequately address risk;

��	 promoting continued awareness of information security risk and providing appropriate
    training;

��	 continually monitoring and evaluating policy and effectiveness of information security
    practices; and

��	 integrating security into its capital planning and investment control process.

Our evaluation demonstrates that information security has not received adequate attention at
USPTO and that significant weaknesses exist in planning, budgeting, implementation, review,
and oversight of this area. Information security weaknesses throughout Commerce prompted
OIG to identify strengthening information security as one of the Department’s top 10
management challenges. Recognizing the severity of this issue, the Secretary of Commerce
issued a memorandum to secretarial officers and heads of operating units in July 2001 stating
that information security should be given high priority and sufficient resources and that these
officials are expected to personally invest the time necessary to assure information security
improvements (Appendix B). The memorandum directed these officials to work closely with and
support their operating unit CIOs with respect to information security and to allocate sufficient
resources at the operating unit level necessary for the protection of Commerce data and systems.
This direction, however, was provided in the context of a departmental IT management
restructuring, and the memorandum was not sent to the head of USPTO. Because strengthening
information security is a top management challenge that is directly applicable to USPTO, the
memorandum is relevant to USPTO.

The awareness, support, and proactive involvement of USPTO’s senior management are,
however, essential to establishing the environment and ensuring the resources needed to promote
an effective information security program. We urge the Under Secretary of Commerce for


                                                17

U.S. Department of Commerce                                         Final Inspection Report OSE-14816 

Office of Inspector General                                                                March 2002


Intellectual Property and Director of USPTO to make improving the information security
program a high priority and to direct USPTO senior management officials to do the same. He
should ensure that these officials fully understand their information security responsibilities and
make certain that sufficient resources are allocated to this essential area.

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office ensure that senior USPTO management officials:

1. Give information security high priority, sufficient resources, and their personal attention.

   USPTO has agreed with this recommendation. The USPTO Chief Information Officer
   and the Under Secretary of Commerce for Intellectual Property and Director will continue
   to work together to ensure that appropriate attention and resources are allocated to the IT
   Security Program. In addition, the USPTO Chief Information Officer will update the
   Executive Committee every 2 months at its regular meeting.

2. Work closely with the USPTO CIO to improve information security.

   USPTO has agreed with this recommendation and has appointed an interim IT Security
   Program Manager until the Office of Information Security is reorganized and IT security
   vacancies filled.


3. Be provided with explicitly defined and documented information security responsibilities.

   USPTO has agreed with this recommendation and a new administrative order will define
   information security responsibilities across USPTO.




                                                 18

U.S. Department of Commerce                                             Final Inspection Report OSE-14816 

Office of Inspector General                                                                    March 2002


                                              APPENDIX A
                                                                                                  2 Pages

                     Additional Information Security Roles Within USPTO7

Automated Information System (AIS) Security Analyst - assists the Project Manager in
determining specific legislative, procedural, security, and confidentiality requirements for the
AIS.

AIS Security Officer - assists the Project Manager with preparing the security information that
is in the Operational Support Plan.

Director, Office of System Product Assurance - conducts independent tests of AIS system
contingency plans and the Information Technology Infrastructure Disaster Recovery Plan.

USPTO Business Area Program Sponsor - ensures, with the assistance of the CIO, that
information systems process and handle sensitive information in a cost-effective manner.

AIS Production Manager - appointed by the Business Area Program Sponsor, the Production
Manager is responsible for the security of the AIS and serves as the AIS Security Officer for
systems in operation.

AIS Project Manager - appointed by the Business Area Program Sponsor, the AIS Project
Manager with the assistance of a System Development Manager conducts AIS sensitivity
assessment, prepares the AIS Security Plan, identifies and prioritizes AIS security requirements,
incorporates security training requirements in AIS training plan, serves as AIS Security Officer
until Business Area Program Sponsor appoints a Production Manager or another business area
employee to serve in the role, ensures that funding is available, and obtains contractor support to
conduct the risk assessment.

System Development Manager - appointed by the CIO, the System Development Manager is
responsible for designing, developing and deploying an AIS under the business direction of the
Project Manager; also, works with the Information Systems Security Officer to ensure that
adequate application controls are built into the AIS.

Office of Information Systems Security (OISS) Duty Officer - serves as a single point of
contact on a rotational basis for user ID issues and other routine security issues, coordinates
incident response activities.

Contracting Officer Technical Representatives - coordinates with Task Order Manager(s) for
all security duties, initiates background check for contractors performing system administration.




7
 US Patent and Trademark Office. USPTO Automated Information System Security Control Manual, Technical
Standard and Guideline, USPTO IT-212.2-15. Washington, DC: US Patent and Trademark Office.


                                                    19

U.S. Department of Commerce                                        Final Inspection Report OSE-14816 

Office of Inspector General                                                               March 2002


Office of System and Network Management - establishes and monitors operating system and
hardware baseline information, reviews system logs, and reports anomalies to Office of
Information Systems Security.

USPTO's Office of Security - performs national agency check, conducting inquiries regarding
employees and contractors as required by federal policies and position determination.

Office of Human Resources - designates, with the assistance of the managers, the sensitivity or
risk levels of positions in the operating unit; sends a list of departing USPTO personnel to the
Office of Information Systems Security and the Office of System and Network Management;
notifies the Office of System and Network Management and the Office of Information Systems
Security of any personnel issues that may have a direct or indirect affect to information security.




                                                20

U.S. Department of Commerce                 Final Inspection Report OSE-14816 

Office of Inspector General                                        March 2002


                              APPENDIX B





                                  21

U.S. Department of Commerce                    Final Inspection Report OSE-14816 

Office of Inspector General                                           March 2002





                              ATTACHMENT A 





                                   22

U.S. Department of Commerce         Final Inspection Report OSE-14816 

Office of Inspector General                                March 2002





                              23

U.S. Department of Commerce         Final Inspection Report OSE-14816 

Office of Inspector General                                March 2002





                              24

U.S. Department of Commerce         Final Inspection Report OSE-14816 

Office of Inspector General                                March 2002





                              25

